                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 105060027                                                              Page 1 of 1



                The attached press release provides the background and substance of this case
         involving the University of Connecticut (UConn). We reviewed and provided suggestions
         regarding the draft settlement and compliance agreements, and, based on our
       . recommendation, NSF approved the attached settlement agreement. We also recommended
         that NSF (1) coordinate with EPA to ensure that NSF's interests are protected in EPS's
         oversight of the attached compliance agreement with UConn; and (2) take steps to protect
         NSF's current and future awards to UConn. NSF agreed (1) to work with EPA and (2) to
         designate UConn a high,risk institution and implement appropriate prophylactic procedures.

                   Accordingly, this case is closed.




         Attachments: DO] Press Release; Settlement Agreement; Compliance Agreement




NSF OIG Form 2 (11/02)
                                SETTLEMENT AGREEMENT

                                           I. Parties

       This Settlement Agreement ("Agreement") is made and entered into by and among the

United States of America, acting through the United States Department of Justice and on behalf

of several Federal agencies, departments,and other entities (collectively, "the United States"), I

and the University of Connecticut ("UCONN"). The United States and UCONN are hereinafter

referred to as "the Parties."

                                  II. The Covered Conduct

        1.      From approximately July 1, 1997 through October 5, 2004, the United States

awarded a series of Federal grants and/or contracts (hereinafter "grants") to UCONN for work to
                                                                  (



be perfonned by certain ofUCONN's specialized-service facilities.

        2.      UCONN submitted claims, and the United States paid Federal monies, in excess

of $40 million in. direct and indirect costs related to the grant awards during the time period in

question.

        3.      In or about September 2002, the United States began an investigation of

allegations of professional and criminal misconduct occurring at UCONN that coincided with

investigations conducted by UCONN and the      Of~ce    of the Attorney General. The investigation

involved an extensive review of grant research and development dollars awarded by the United

States to UCONN.




       1    These comprise the Environrn:ental Protection Agency, the Department of Defense,         i

the Department of Agriculture, the Department of Commerce, the Department of Education, the
Department of Energy, the Department of the Interior, the Department of Transportation, the
Department of Health and Human Services, the National Aeronautics and Space Administration,
and the National Science Foundation.
         4.         As a result of the United States' investigation, UCONN initiated certain

compliance reviews regarding the financial practices of the Environmental Research Institute

("ERr"), a specialized-service facility at UCONN. The United States also expanded an

investigation of the Booth Research Center ("BRC"), another specialized service facility at

UCONN. UCONN cooperated extensively with the United States with respect to its ERr and

BRC investigations.

           5.       The United States contends that beginning on or about July 1, 1997, UCONN

submitted grant applications containing incorrect or overstated information about anticipated

expenses in the ERr and BRC. The United States further contends that on or about July 1, 1997

and through October 5, 2004, UCONN charged to the grants certain expenses that were not

properly chargeable, and submitted invoices to the United States for payment of expenses,

including:

                     •                    Billing rates
                     •                    Excessive compensation
                     •                    Cost sharing/matching.

           6.       With respect to the issue of billing rates, the United States contends that UCONN

did not utilize a proper basis for setting and regularly updating its rate structure, as required by

the Federal Office of Management and Budget ("OMB") Circular A-21 and UCONN's internal
                                                                               ,

Financial Management of Service Centers Policy. The United States contends that the last time

UCONN revised its billing rate was in 1996. UCONN's failure to revise and appropriately set its

rate structure resulted in numerous false claims being submitted for payment to the ,United

States .

        . 7.         With respect to the issue of excessive compensation, the United States contends

that UCONN failed to follow OMB Circular A-21 and UCONN's internal Extra-Compensation

U.S.fUCONN Settlement Agreement
                                                    2
Policy for Faculty by allowing principal investigators ("PIs") to charge a grant the portion of

their summer salary that was in excess of the PIs' annualized salary. Per UCONN policy, which

follows the requirements of OMB Circular A-21, annualized salary is specifically identified as

the academic year (either 9, 10, or 11 month) salary plus the 1 to 3 month equivalent sa1~ to

equal 12 months. Excess compensation paid to UCONN faculty members in support of research

activity was charged to grants in violation of Federal regulations and UCONN policies and

procedures.

         8.         With respect to the issue of cost sharing/matching, the United States contends that

UCONN failed to provide cost sharing/matching financial compensation for grant stipulated

amounts. The United States identified records calculating UCONN's cost sharing compensation

per grant. However, the amounts appropriated for the cost sharing, as stipulated withln the

grants, were not representative of the amounts actually paid by UCONN.

          9.        The conduct. described above in Paragraphs 1 through 8 of this section           IS


hereinafter referred to as ''the Covered Conduct." The Covered Conduct is limited to grants

awarded to UCONN that involved ERI and BRC. The grants specifically included in the C(Jvered

Conduct are listed on Attachment A hereto, which is incorporated in full into this Agreement. In

addition, the Covered Conduct does not include any other conduct as to the grants set forth in

Attachment A except the conduct described above in Paragraphs 1 through 8. Moreover, some

of the grants listed on Attachment A remain open. The Covered Conduct for any open grants

does not include any conduct of whatever nature that occurred subsequent to October 5, 2004.

          10.        The United States contends that it has certain civil claims against UCONN under

the False Claims Act, 31 U.S.C. §§ 3729-3733, and other Federal statutes and/or common law

doctrines, for the Covered Conduct.

U.S./UCONN Settlement Agreement
                                                     3
          11.        UCONN denies as a matter of law that it has any institutional liability under the

False Claims Act, 31 U.S.C. §§ 3729-3733, or other Federal statutes and/or common law

doctrines, with regard to the Covered Conduct.

          12.        In order to avoid the delay, uncertainty, inconvenience, and expense of protracted

litigation of these claims, however, the Parties reach a full and final settlement pursuant to the

terms and conditions set forth below.

                                        III. Terms and Conditions

          NOW, THEREFORE, in consideration of the mutual promises, covenants, and

obligations that follow, and for good and valuable consideration as stated herein, the Parties

agree as follows:

           1.     UCONN agrees to pay to the United States Two Million Five Hundred Thousand

Dollars ($2,500,000.00) ("the Settlement Amount"). UCONN agrees to make payment of the

Settlement Amount by electronic funds transfer pursuant to written instructions to be provided

by the United States Attorney's Office, District of Connecticut. UCONN agrees to make this

electronic funds transfer by no later than ten business days after the Effective Date of this

. Agreement or after receipt of the written instructions, whichever is later.

           2.         UCONN agrees that it will implement and maintain a plan ('The Compliance

 Agreement," a copy of which is attached hereto as Attachment B and which is incorporated

 herein) to improve its administration and accounting of research projects so as to ensure that

 United States funds are used in accordance with the terms and conditions of the pertinent grant

 awards and regulations.

           3.         Subject to the exceptions in Paragraph 4 below, in consideration of the obligations

 ofUCONN set forth in this Agreement, and conditioned upon UCONN's payment in full of the

 U.S.IUCONN Settlement Agreement
                                                       4
                                                                                 ,   j




Settlement Amount, the United States, on behalf of itself, its officers, agents, agencies, and

departments, fully and finally releases UCONN, together with its current or former subsidiaries,

affiliates, officers, directors, faculty, employees and agents and the successors and assigns            of any
of them, from any civil monetary claim the United States has or may have for the Covered

Conduct under the False Claims Act, 31 U.S.C. §§ 3729-3733; the Program Fraud Civil

Remedies Act, 31 U.S.c. §§ 3801-3812; any statutory provision applicable to the Covered

Conduct
    .
        for which the Civil Division, Department
                                       .
                                                 of Justice has actual and present authority
                                                                                        !
                                                                                             to

assert and compromise pursuant to 28 C.F.R. Part 0, Subpart I, O.4S(d)(1995); or the common

law theories of fraud, payment by mistake, unjust enrichment, breach of contract, disgorgement,

recoupment, and conversion.

         4.         Notwithstanding any term of this Agreement, specifically reserved and excluded

from the scope and terms of this Agreement as to any entity or person (including UCONN) are

any and all of the following:

                    (a)           Any civil, criminal or administrative liability under Title 26, U.S.

                    Code (Internal Revenue Code); and nothing in this Agreement constitutes an

                     agreement by the United States concerning the characterization of the amounts

                     paid hereunder for purpose of any proceeding under the Internal Revenue Code;

                     (b)          Any criminal liability;

                     (c)          Any administrative liability, including mandatory exclusion from

                     Federal grant programs;

                     (d)          Any liability to the United States (or its agencies) for any conduct other
                                                                                                         Ii

                     than that arising from the Covered Conduct; and

                     (e) Any liability based upon such obligations as are created by this Agreement.

U.S.IUCONN Settlement Agreement
                                                             5
          5.         UCONN waives and will not assert those defenses it may have to any cr4ninal

 prosecution or administrative action relating to the Covered Conduct, which defenses are based

. in whole or in part on a contention that, under the Double Jeopardy Clause in the Fifth

 Amendment of the Constitution, or under the Excessive Fines Clause in the Eighth Amendment

 of the Constitution, this Agreement bars a remedy sought in such criminal prosecution or

 administrative action or that this Agreement is punitive in purpose or effect.

          6.         UCONN fully and finally releases the United States, its agencies, employees,

 servants, and agents from any claims (including attorney's fees, costs, and expenses of every

 kind and however denominated) which UCONN has asserted, could have asserted, or may assert

 in the future against the United States, its agencies, employees, servants, and agents, related to

 the Covered Conduct and the United States' investigation thereof.

          7.         UCONN agrees to the following:

                     (a) Unallowable Costs Defined: That all costs (as defmed in OMB Circular A-21,

 and the regulations and official program directives promUlgated thereunder) incurred by or on

 behalf ofUCONN, its present or former officers, directors, employees, and agents in connection

 with the following shall be "unallowable costs" on grants and contracts with the United States:

                                   (1)   the matters covered by this Agreement;

                                   (2)   the United States' audit(s) and civil and criminal investigations(s)

                                         of the matters covered by this Agreement;

                                   (3)   UCONN's investigation, defense, audits, and any corrective

                                         actions undertaken in response to the United States' audit(s) and

                                         civil or criminal investigation(s) in connection with the matters

                                         covered by this Agreement (including attorney's fees);

 U.S'/uCONN Settlement Agreement
                                                           6
                                        requests already submitted by UCONN or any of its

                                        subsidiaries, as appropriate, and shall request, and agree,

                                        that such grant applications, grant awards, cost reports.

                                        cost statements, infonnation reports, or payment requests,.

                                        even if already settled, be adjusted to account for the

                                        effect of the inclusion of the unallowable costs. Excluded

                                        from this requirement, as the result of payment of the

                                        Settlement Amount, are any unallowable costs included

                                        in the Covered Conduct of this Agreement.

                                  (2)   Except for the unallowable costs set forth in the exclusion

                                        in subparagraph (1) of this Paragraph, UCONN agrees

                                        that the United States, at a minimum, shall be entitled to

                                        recoup from UCONN, as appropriate, any overpayment

                                        plus' applicable interest and penalties as a result of the

                                        inclusion of such unallowable costs on previously-

                                        submitted grant applications, grant awards, cost reports,

                                        infonnation reports, cost statements, or requests for

                                        payment.

                                  (3)   Except for any overpayments as a result of the

                                        unallowable    costs set    forth   in the   exclusion in

                                        subparagraph (1) of this Paragraph. any payment due

                                        after the adjustments have been made. shall be paid to the



U.S.IUCONN Settlement Agreement
                                                 8
                                            United States pursuant to the direction of the Department

                                            of Justice, andlor the affected agencies.

                                  (4)       The United States reserves its rights to disagree with any
                                            calculations submitted by UCONN or any of its

                                            subsidiaries on the effect of inclusion of unallowable

                                            costs (as defined earlier in this Paragraph) on UCONN or

                                            any of its subsidiaries' cost reports, cost statements, or

                                            information reports.

                                  (5)       Nothing in this Agreement shall constitute a waiver <;lfthe

                                            rights of the United States to examine or reexamine the

                                             unallowable costs described in this Paragraph.

            8.      UCONN covenants to cooperate fully and truthfully with the United States'

investigation of individuals and entities not specifically released in this Agreement. Upon

reasonable notice, UCONN will make reasonable efforts to facilitate access to, and encourage

the cooperation of, its directors, officers, and employees for interviews and testimony, consistent

with the rights and privileges of such individuals, and shall       ~sh     to the United States, upon

reasonable request, all non-privileged documents and records in its possession, custody, or

control relating to the United States' investigation of individuals and entities not specifically,

released in this Agreement.

             9.      Each party to this Agreement shall bear its own legal and other costs incurred in

connection with this matter, including the preparation and performance of this Agreement.

             10.     This Agreement is governed by tl).e laws of the United States. The Parties



U.S.JUCONN Settlement Agreement
                                                      9
                                                                         -
                                                                             i
                                                                             I




agree that the exclusive jurisdiction and venue for any dispute arising between and among the

Parties under this Agreement shall be the United States District Court for the District of

Connecticut.

            11.     This Agreement represents the full, complete, and sole agreement between

the Parties. with regard to the matters contained herein. This Agreement may not be amended

except by written consent of the Parties.

            12.     The undersigned individuals signing this Agreement on behalf of UCONN
                                                                                               "
represent and warrant that they are authorized by UCONN to execute this Agreement. The

undersigned United States signatory represents that he is signing this Agreement in his official

capacity and that he is authorized to execute this Agreement.

            13.     The Parties have executed three identical copies of this Agreement,

each of which shall be deemed an original of the Agreement. The Agreement may be executed

in counterparts, each of which shall constitute an original and all of which shall constitute one

and the same Agreement.

             14.     The "Effective Date" of this Agreement shall be the earlier of (a) payment by

UCONN of the Settlement Amount in full, or (b) the date on which the last signatory executes

the Agreement. This Agreement shall be binding and irrevocable upon the date of signature of

the last signatory to this Agreement. Facsimiles of signatures shall constitute acceptable, binding

signatures for purposes of this Agreement.




U.5.IUCONN Settlement Agreement
                                                     10




                                                                                                      ,.,
         IN WITNESS WHEREOF, the Parties have executed this Agreement:


                                 FOR THE UNITED STATES OF AMERICA


          KEVIN J. O'CONNOR
          UNITED STATES ATTORNEY
          DISTRICT OF CONNECTICUT
                        •
By:            W~ -Ar~                                   Dated:
          WILLIAM A. COLLIER
          ASSISTANT U.S. ATTORNEY


                                 FOR THE UNIVERSITY OF CONNECTICU'f

By:        ~;.~ ~                                        Dated:
       PHILIP E.       AU~IN
       PRESIDENT, UNIVERSITY OF
         CONNECTICUT


BY:Qp~PAUL S. McC~ES<i
                                                         Dated:   rla 5/ 0b
      ASSISTANT ATTORNEY GENERAL,
         STATE OF CONNECTICUT
      AS COUNSEL FOR UNIVERSITY OF
         CONNECTICUT




U.SJUCONN Settlement Agreement
                                                 11
ATTACHMENT A
                                        ERI
                               Federal Awards Issued
                                  FY1998 - 2004


FY
1
1998   Department of Defense                            59.513.00         CLOSED
1998   Department of Defense                            90.000.00         CLOSED
1998   Department of Defense                            49,982.00         CLOSED
1998   NASA                                             40,000.00         CLOSED
1998   NSF                                              49,812.00         CLOSED
1998   NSF                                             210.000.00         CLOSED
1998   EPAlCTDEP                                        13,110.00         CLOSED
1998   EPAlCTDEP                                       100,000.00         CLOSED
1998   Department of Energy                             49,925.00    'I   CLOSED
1998   Department of Energy                             59,736.00         CLOSED
1998   Department of Energy                            130,326.00         CLOSED
1998   Interior                                         40,000.00         CLOSED
1998   EPA                                              29,402.00         CLOSED

                                         TOTAL 1998    $951,806.00
                                  ERI
                         Federal Awards Issued
                            FY1998 - 2004




       U
1999   DEPT OF DEFENSE                                24,989.00   CLOSED
1999   DEPT OF DEFENSE                                13.500.00   CLOSED
1999   DEPT OF DEFENSE                                88,330.00   CLOSED
1999   DEPT OF DEFENSE                                74,479.00   CLOSED
1999   DEPT OF DEFENSE                                36,469.00   CLOSED
1999   DEPT OF DEFENSE                                41,089.00   CLOSEd
1999   Department of T                                97,502.00   CLOSED
1999   NASA                                           75,000.00   CLOSED
1999   NASA                                         100,000.00    CLOSED
1999   NASA                                      .1,099,576.00    CLOSED
1999   NASA                                           81,250.00   CLOSED
1999   NASA                                           10,000.00 " CLOSED
1999   NASA                                         135,246.00    CLOSED
1999   EPA                                            69,992.00   CLOSED
1999   EPA/CTDEP                                      10,500.00   CLOSED
1999   EPA/CTDEP                                      47,272.96   CLOSE~
1999   EPA/CT DEP                                   201,919.04    CLOSED
1999   EPA/CTDEP                                      61,890.00   CLOSED'
1999   EPA/CTDEP                                      40,000.00   CLOSED
1999   EPA/CT DEP                                     89,664.00   CLOSED
1999   EPA/CT DEP                                     10,000.00   CLOSED
1999   EPA/CTDEP                                      96,568.00   CLOSED
1999   EPA/CT DEP                                     80,393.00 I CLOSED
1999   EPA/CT DEP                                    100,000.00   CLOSED
1999   EPA/CTDEP                                      35,572.00   CLOSED
1999   EPA/CTDEP                                      52,000.00   CLOSED
1999   DEPT OF ENERGY                                 99,023.00   CLOSED
1999   DEPT OF ENERGY                                 55,868.00   CLOSE~
                                                                        :~
                                   TOTAL 1999    $2,931,392.00
                                  ERI
                          Federal Awards Issued
                             FY1998 ·2004     •




2000   DEPT OF COMMERCE                             $21,942.00     CLOSED
2000   DEPT OF COMMERCE                             $16,178.00     CLOSED
2000   DEPT OF DEFENSE                             $119,373.00     CLOSEb
2000   DEPT OF DEFENSE                              $97,574.00     CLOSED
2000   DEPT OF ENERGY                               $75,000.00     CLOSED
2000   DEPT OF ENERGY                               $76,300.00     CLOSED
2000   DEPT OF INTERIOR                             $20,000.00     CLOSED
2000   DEPT OF INTERIOR                              $3,000.00     CLOSED
2000   EPA                                          $50,000.00     CLOSED
2000   EPA                                         $395,876.00     CLOSED
2000   EPA                                          $50,000.00     CLOSED
2000   EPNCT DEP                                    $11,130.00 '   CLOSED
2000   EPNCT DEP                                  , S50,200.00     CLOSED
2000   EPNCT DEP                                    $53,560.00     CLOSED
                                                                         'I
2000   EPNCTDEP                                     $15,000.00     CLOSED
2000   EPNCTDEP                                     $50,000.00     CLOSED
2000   EPNCTDEP                                    $169,009.00 ,   CLOSED
2000   EPNCTDEP                                     $80,000.00     CLOSED
2000 EPAICT DEP                                     $88,154.00     CLOSED
2000 . EPNCT DEP                                    $55,000.00     CLOSEID
2000 EPNCT DEP                                     $210,000.00     CLOSED
2000 EPNCTDEP                                       $77,800.00     CLOSED
2000 EPAICT DEP                                     $10,000.00 1   CLOSED
2000 EPNCTDEP                                       $63,620.00     CLOSED
2000 EPNCTDEP                                      $245,451.00     CLOSED
2000 NASA                                           $75,000.00     CLOSED
2000 NASA                                           $80,000.00     CLOSED
2000 NASA                                           $57,155.00     CLOSED
2000 NASA                                          $124,428.00     CLOSED
2000 NASA                                          $113,484.00     CLOSED
2000 NSF                                            $35,000.00     CLOSED
2000 NSF                                            $55,122.00     CLOSED
2000 NSF                                             $6,250.00     CLOSED
2000 NSF                                            $88,355.00     CLOSED

                                                  $3,003,961.00
                                   ERI
                          Federal Awards Issued
                             FY1998 - 2004




                                                    $12,187.00             CLOSED
                                                   $117,765.00             CLOSED
2001   DEPT OF DEFENSE                             $100,741.00             CLOSED
2001   DEPT OF DEFENSE                             $145,400.00             CLOSED
2001   DEPT OF DEFENSE                              $33,000.00             CLOSED
2001   DEPT OF ENERGY                               $45,000.00             CLOSED
2001   DEPT OF ENERGY                               $60,000.00             CLOSED
2001   DEPT OF ENERGY                               $15,000.00             CLOSED
2001   DEPT OF ENERGY                               $99,044.00             CLOSEG>
2001   DHHS                                          $5,600.00             CLOSED
2001   DHHS                                          $8,400.00             CLOSED
2001   DEPT OF INTERIOR                             $24,408.00             CLOSED
2001   DEPT OF INTERIOR                             $19,430.00             CLOSEO
2001   DEPT OF INTERIOR                             $16,054.00             CLOSED
2001   EPA                                          $50,000.00             CLOSED
2001   EPA                                          $50,000.00             CLOSED
2001   EPA                                          $34,000.00             CLOSED
2001   EPA                                          $20,000.00             CLOSED
2001   EPA                                          $73,091.00             CLOSED
2001   EPA                                           $6,000.00             CLOSED
2001   EPAICT DEP                                      $440.00    'I       CLOSED
2001   EPAICT DEP                                   $63,280.00             CLOSED
2001   EPAICT DEP                                   $63,571.00             CLOSED
2001   EPAICT DEP                                  $117,856.00             CLOSED
2001   EPAICT DEP                                  $133,400.00             CLOSED
2001   EPAICT DEP                                   $69,945.00             CLOSED
2001   EPAICT DEP                                   $25,000.00             CLOSED
2001   EPAICT DEP                                  $106,686.00             CLOSED
2001   EPAICT DEP                                   $18,750.00             CLOSED
2001   EPAICT DEP                                  $232,112.00             CLOSED
2001   EPAICT DEP                                  $200,000.00             CLOSED
2001   EPAlCTDEP                                    $82,974.00             CLOSED
2001   EPAICT DEP                                  $117,026.00             CLOSED
2001   EPAICT DEP                                   $63,620.00             CLOSED
2001   EPAICT DEP                                  $236.689.00             CLOSED
2001   EPAICT DEP                                   $38,300.00             CLOSED
2001   EPAICT DEP                                   $30,000.00             CLOSED
2001   EPAICT DEP                                  $224,642.00             CLOSED
2001   NASA                                         $75,000.00             CLOSED
2001   NASA                                        $162,207.00             CLOSED
2001   NASA                                        $108,013.00             CLOSED
2001   NSF                                          $34,999.00             CLOSED
2001   NSF                                         $106,250.00             CLOSED
2001   NSF                                          $36,895.00             CLOSED
2001   NSF                                         $245,749.00             CLOSED
2001   NSF                                          $63,569.00         1   CLOSED
2001   NSF                                          $19,979.00             CLOSED

                                    TOTAL 2001    $3,637,084.00
                            )                           "1
                                                        J

                                         ERI
                                Federal Awards Issued
                                   FY1998 - 2004


                                                                 Amount
                        E                                              .00
        DEPT OF COMMERCE                                      $100,000.00.,    CLOSED
        DEPT OF DEFENSE                                        $90,000.00      CLOSED
2002    DEPT OF DEFENSE                                        $63,000.00      CLOSED
2002    DEPT OF DEFENSE                                        $56,036.00      CLOSEP
2002    DEPi OF DEFENSE                                       $130,000.00      CLOSED
                                                                                     '1
2002    DEPT OF DEFENSE                                        $21,261.00      CLOSEP
2002    DEPT OF DEFENSE                                        $65,848.00      CLOSED
2002    DEPT OF EDUCATION                                     $259.713.00      CLOSED
2002    DEPT OF ENERGY                                         $44,055.00      CLOSED
2002    DEPT OF ENERGY                                        $438,284.00      CLOSED
2002    EPA                                                    $97,546.00 :    CLOSED
2002    EPA                                                    $99,800.00 I    CLOSED
2002    EPAICT DEP                                             $41,554.00      CLOSED
2002   .EPAlCTDEP                                              $36,966.00      CLOSED
2002    EPAlCTDEP                                             $110,898.00      OPEN
2002    EPAICT DEP                                             $52,439.00      CLOSED -I'
2002    EPAlCTDEP                                              $14,000.00      CLOSED
2002    EPAICT DEP                                             $25,000.00      CLOSED
2002    EPAlCTDEP                                              $31,500.00      CLOSED
2002    EPAlCTDEP                                              $65,940.00      CLOSED
2002    EPAICT DEP                                            $244,092.00      CLOSED
2002    EPAlCTDEP                                              $25,000.00      CLOSED
2002    EPNCTDEP                                              $236,398.00      CLOSED
2002    EPAICT DEP                                            $100,000.00      CLOSED
2002    EPAlCTDEP                                             $267,017.00      CLOSED
2002    EPAICTOEP                                               $8,944.00      CLOSED
2002    EPNCTDEP                                              $191,214.00 .    CLOSED
2002    EPAICT DEP                                             $59,800.00      CLOSED  -,
2002    EPNCTDEP                                               $63,804.00 -    CLOSED
2002    EPNCTDEP                                              $179,500.00      CLOSED
2002   ,EPAICT DEP                                            $256,613.00      CLOSED
2002    EPNCTOEP                                               $12,000.00      CLOSED
2002    EPAICT OEP                                            $100,000.00      CLOSED
2002    EPNCT DEP                                              $16,354.00      CLOSED
2002    NASA                                                  $115,000.00'     CLOSED
2002    NASA                                                   $94,423.00      CLOSED
2002    NASA                                                   $90,000.00      CLOSED
2002    NASA                                                   $22,000.00      CLOSE[D
2002    NASA                                                   $95,000.00      OPEN;
2002    NASA                                                   $60,000.00      CLOSE!D
2002    NSF                                                    $17,000.00      CLOSE!?
2002    NSF                                                     $5,313.00      CLOSED
2002    NSF                                                    $12,155.00     -CLOSED
2002    NSF                                                   $277,690.00      CLOSED
2002    NSF                                                   $197,919.00      OPEN
2002    NSF                                                    $25,000.00;     CLOSED
2002    NSF                                                    $82,971.00      OPEN
2002    NSF                                                   $142,062.00      CLOSED
2002    NSF                                                   $230,293.00      OPEN

                                          TOTAL 2002         $5,094,402.00
                              ....   -~,




                                           I.
                                           I

                                                         ERI
                                                Federal Awards Issued
                                                   FY1998·2004


                                                                                        1
                   ICUL                                                                 OPEN
        DEPT OF AGRICULTURE                                              $158,384.51    CLOSED
        DEPT OF AGRICULTURE                                              $131,000.00    CLOSED
2003    DEPT OF AGRICULTURE                                              $151,715.90    CLOSED
2003    DEPT OF DEFENSE                                                    $87,765.00   CLOSED
2003    DEPT OF DEFENSE                                                    $65,282.00   CLOSED
2003    DEPT OF DEFENSE                                                    $34,600.00   CLOSED
2003    DEPT OF DEFENSE                                                    $55,000.00   CLOSED
2003    DEPT OF DEFENSE                                                     $5,506.00   CLOSED
2003    DEPT OF DEFENSE                                                    $30,000.00   CLOSED
2003    DEPT OF DEFENSE                                                    $15,000.00   CLOSED
2003    OEPT OF DEFENSE                                                    $19,500.00   OPEN
2003    DEPT OF OEFENSE                                                    $47,297.00   CLOSED
2003    DEPT OF ENERGY                                                     $13,951.00   CLOSgD
2003    DEPT OF ENERGY                                                     $38.400.00   CLOSED
2003    DEPT OF ENERGY                                                     $54,062.00   CLOSED
2003    DHHS                                                                $9,568.00   CLOSED
2003   ·DHHS                                                                $9,568.00   CLOSED
2003    EPA                                                                $50,000.00   CLOSED
2003    EPAICT DEP                                                         $80.926.00   CLOSED
2003    EPAICT DEP                                                         $47.850.00   CLOSED
2003    EPAICT DEP                                                        $179.680.00   CLOSED
2003    EPAICT DEP                                                       $110,898.00    OPEN II
2003    EPAICT DEP                                                         $36.966.00   CLOSED
2003    EPAICT DEP                                                          $1,120.00   CLOSED
2003    EPAlCTDEP                                                       $1,500,000.00   OPEN
2003    EPAICT DEP                                                         $70.000.00   CLOSED
2003    EPAICT DEP                                                        $200,000.00   CLOSED
2003    EPAICT DEP                                                         $66,700.00   CLOSED
2003    EPAICT DEP                                                        $157,752.00   CLOSED
2003    EPAlCTDEP                                                         $261,272.00   CLOSED
2003    NASA                                                               $57,845.00   CLOSED
2003    NASA                                                               $45,000.00   CLOSED
2003    NASA                                                               $37,500.00   CLOSED
2003    NASA                                                               $31,997.00   OPEN
2003    NASA                                                               $71,025.00   CLOSED
2003    NASA                                                               $20;000.00   CLOSED
2003    NSF                                                               $112.240.00   CLOSED
2003    NSF                                                               $198.234.00   OPEN
2003    NSF                                                                $75,000.00   CLOSED
2003    NSF                                                                $69.885.00   OPEN..,
2003    NSF                                                                $58,088.00   CLOSED
2003    NSF                                                               $331.234.00   OPEN II
2003    NSF                                                               $123.526.00   OPEN

                                                          TOTAL 2003    $5.216.337.41
                                       ERI
                               Federal Awards Issued
                                  FY1998 - 2004


                                                              Amou
                                                         1... "', ..,....... ,JV       N
         DEPT OF AGRICULTURE                             466,130.00                OPEN
         DEPT OF COMMERCE                                158,912.00                OPEN
  2004   DEPT OF DEFENSE                                  32,000.00                CLOSED
. 2004   DEPT OF DEFENSE                                  17,160.00                CLOSED
  2004   DEPT OF DEFENSE                                 100,888.00                OPEN Ii
  2004   DEPT OF DEFENSE                                  11,885.00                CLOSED
  2004   DEPT OF DEFENSE                                  61,150.00                OPEN
  2004   DEPT OF ENERGY                                   50,942.00                CLOSED
  2004   DEPT OF ENERGY                                   23,826.04                CLOSED
  2004   DEPT OF ENERGY                                   55,192.00                CLOSED
  2004   D,EPT OF ENERGY                                  75,000.00                OPEN
  2004   DEPT OF ENERGY                                  112,341.81                CLOSED
  2004   DHUD                                             58,000.00                CLOSED
  2004   DHUD                                                4,970.00              CLOSED
  2004   EPA                                           1,341,200.00                OPEN
  2004   EPAICT DEP                                      100,000.00                CLOSED
  2004   EPAICT DEP                                      138,314.00                CLOSED
  2004   EPAICT DEP                                      138,890.00                CLOSED
  2004   EPAICT DEP                                       70,000.00                CLOSED
  2004   NASA                                            135,000.00                CLOSE!?
  2004   NASA                                             89,004.00                CLOSE!:)
  2004   NASA                                             67,984.00                CLOSED
  2004   NASA                                            262,107.84                CLOSED
  2004   NASA                                            130,000.00                CLOSED
  2004   NASA                                             40,000.00                CLOSED
  2004   NSF                                             203,849,00                OPEN
  2004   NSF                                             459,813.00                CLOSED
  2004   NSF                                             127,616.00                OPEN
  2004   NSF                                             378,872.00                OPEN
  2004   NSF                                             114,869.00                CLOSED
  2004   NSF                                               40,863.00               OPEN
  2004   NSF                                               55,527.00               CLOSED
  2004   NSF                                               71,948.00               CLOSED
  2004   NSF                                               59,920.00               CLOSED

                                                       $5,443,729.69.
                                                        /



                                   BRC(BECAT)
                                Federal Awards Issued
                                   FY 1998 - 2004

                                                            Award
FY    Federal {Prlmel S~onsor                               Amount            ;1213112005

 1998 Department of Defense                                      67,076.00    CLOSED
 1998 Department of Defense                                      50,000.00    CLOSED
 1998 Department of Defense                                     160,362.00    CLOSED
 1998 Department of Defense                                      49,000.00    CLOSED
 1998 Department of Defense                                         218.00    CLOSED
 1998 Department of Defense                                      22,374.00    CLOSED
 1998 Department of Defense                                      25,000.00    CLOSED
 1998 Department of Defense                                     200,000.00    CLOSED
 1998 Department of Defense                                     100,000.01    CLOSED
 1998 Department of Defense                                     140,787.27    CLOSED
 1998 Department of Defense                                     100,000.00    CLOSED
 1998 Department of Defense                                     116,309.00    CLOSED
 1998 Department of Defense                                      96,775.00    CLOSED
 1998 Department of Defense                                     109,620.00    CLOSED
 1998 Department of Defense                                      78,329.00    CLOSED
 1998 Department of Defense                                      93.696.00    CLOSED
 1998 Department of Defense                                      24,059.00    CLOSED        Ii

 1998 Department of Defense                                     132,684.00    CLOSED
 1998 Department of Defense                                      59,440.00    CLOSED
 1998 Department of Defense                                      30,000.00    CLOSED
 1998 Department of Energy                                       78,742.00    OPEN
 1998 DHHS                                                      142.289.00    CLOSE'D
 1998 DHHS                                                      /82.964.00    CLOSED
 1998 DHHS                                                      103,189.00    CLOSED
 1998 National Science                                           76,884.00    CLOSED
 1998 National Science Feu                                       27,224.00    CLOSED
 1998 National Science                                           73,863.00    CLOSED
 1998 National Science Feu                                       33,000.00    CLOSED
 1998 National Science                                            10,000.00   CLOSED
 1998 National Science                                            10,700.00   CLOSED
 1998 National Science                                            93,260.00   CLOSED
 1998 National Science                                          120,000.00    CLOSED
 1998 National Science                                          100,000.00    CLOSED
 1998 National Science                                          197,532.00    CLOSED
 1998 National Science                                            40,000.00   CLOSED
 1998 Department of Defense                                       32,000.00   CLOSED
 1998 Department of                                               65,000.00   CLOSED
  1998 Department of                                            200,000.00    CLOSED             II
  1998 Department of                                            220,000.00    CLOSED

                                         TOTAL 1998           $3.362,376.28
                                      BRC (BECAT)
                                   Federal Awards Issued
                                      FY 1998 - 2004
                                                           Award
FY      Federal {Primel S,!onsor                           Amount            12131/2005 il

2000    DEPT OF DEFENSE                                        $42,000.00   CLOSED
2000 DEPT OF DEFENSE                                           $47,233.00   CLOSED
 2000   DEPT OF DEFENSE                                       $186,000.00   CLOSED
 2000   DEPT OF DEFENSE                                       $130,000.00   CLOSED
·2000   DEPT OF DEFENSE                                        $40,000.00   CLOSED       II
 2000   DEPT OF DEFENSE                                        $60,000.00 . CLOSED
 2000   DEPT OF DEFENSE                                        $40,000,00   CLOSED
 2000   DEPT OF DEFENSE                                       $120,000.00   CLOSED
 2000   DEPT OF DEFENSE                                       $120,875.00   CLOSED
 2000   DEPT OF DEFENSE                                        $74,447.00   CLOSED
 2000   DEPT OF DEFENSE                                        $52,423.00   CLOSED
 2000   DEPT OF DEFENSE                                       $252,364.00   CLOSED
 2000   DEPT OF DEFENSE                                        $74,997.00   CLOSED
 2000   DEPT OF DEFENSE                                       $351,592.00   CLOSED
 2000   DEPT OF EDUCATION                                     $293,383.00   CLOSED
 2000   DEPT OF ENERGY                                         $95,000.00   CLOSED
 2000   DHHS                                                   $72,477.00   CLOSED           I'
 2000   DHHS                                                    $6,864.00   CLOSED
 2000   DHHS                                                  $127,789.00   CLOSED
 2000   DHHS                                                   $69,581.00   CLOSED
 2000   DEPT OF TRANSPORT                                      $60,000.00   CLOSED
 2000   DEPT OF TRANSPORT                                      $50,000.00   CLOSED
 2000   NASA                                                   $40,000.00   CLOSED
 2000   NASA                                                   $20,085.00   CLOSED
 2000   NSF                                                    $30,000.00   CLOSED
 2000   NSF                                                    $38,898.00   CLOSED
 2000   NSF                                                   $118,449.00   CLOSED
 2000   NSF                                                    $30,000.00   CLOSED
 2000   NSF                                                   $219,903.00   CLOSED
 2000   NSF                                                    $22,750.00   CLOSED
 2000   NSF                                                    $59,611.00   CLOSED
 2000   NSF                                                    $75.000.00   CLOSED.
 2000   NSF                                                    $60.000.00   CLOSED

                                            TOTAL 2000       $3.081.721.00
                                                                   /


                                  )                           -.       f
                                         BRC (BECAT)
                                      Federal Awards Issued
                                         FY 1998 - 2004

                                                                           Award
FY      Federal ~Prlme} S~onsor                                                              12131/2005 II

 2001   DEPT OF DEFENSE                                                       $230,250.00    CLOSED
 2001   DEPT OF DEFENSE                                                        $34,000.00    CLOSED
 2001   DEPT OF DEFENSE                                                       $150,000.00    CLOSED
 2001   DEPT OF DEFENSE                                                       $150,000.00    CLOSED
 2001   DEPT OF DEFENSE                                                     ' $259.493.00    CLOSED
 2001   DEPT OF DEFENSE                                                        $78,999.00    CLOSED
 2001   DEPT OF DEFENSE                                                        $74,948.00    CLOSED
 2001   DEPT OF DEFENSE                                                       $120,000.00    CLOSED
 2001   DEPT OF DEFENSE                                                        $33,002.00    CLOSED
 2001   DEPT OF ENERGY                                                         $97,000.00    CLOSED
 2001   DHHS                                                                  $188,875.00    CLOSED
 2001   DHHS                                                                   $66,970.85    CLOSED
 2001   DEPT OF TRANSPORT                                                      $26,500.00    CLOSED
 2001   NASA                                                                   $95,000.00    CLOSED
 2001   NASA                                                                   $27,600.00    CLOSED
 2001   NASA                                                                   $27,600.00    CLOSED
 2001   NASA                                                                   $36,000.00    CLOSED
·2001   NASA                                                                   $29,951.00    CLOSED
 2001   NSF                                                                    $77,250.00    CLOSED
 2001   NSF                                                                   $363,636.00    OPEN
 2001   NSF                                                                    $26,927.00    CLOSED
 2001   NSF                                                                   $125,000.00    OPEN
 2001   NSF                                                                    $55,000.00    CLOSED

                                                                             $2,374,001.85
                                  .c--.   ~.,.




                                                    BRC (BECAT)
                                                 Federal Awards Issued
                                                    FY 1998 - 2004
                                                                         Award
FY     Federal iPrime} S!!onsor                                          Amount           12131/2005   II


                                                                                                       !
2002   DEPT OF DEFENSE                                                      $187,823.00   CLOSED
2002   DEPT OF DEFENSE                                                      $130,000.00   CLOSED
2002   DEPT OF DEFENSE                                                    . $150,000.00   CLOSED
2002   DEPT OF DEFENSE                                                       $50,000.00   CLOSED
2002   DEPT OF DEFENSE                                                       $60,819.00   CLOSED
2002   DEPT OF DEFENSE                                                      $120,000.00   CLOSED
2002   DEPT OF DEFENSE                                                      $100,305.00   CLOSED
2002   DEPT OF DEFENSE                                                       $25,000.00   CLOSED
2002   DEPT OF DEFENSE                                                       $34,457.00   CLOSED
2002   DHHS                                                                  $59,780.00   CLOSED
2002   NASA                                                                  $95,000.00   CLOSED
2002   NASA                                                                  $15,000.00   CLOSED
2002   NSF                                                                   $21,496.00   CLOSED
2002   NSF                                                                  $150,491.00   CLOSED
2002   NSF                                                                   $33,000.00   CLOSED
2002   NSF                                                                   $29,700.00   CLOSED

                                                          TOTAL 2002      $1.262,871.00
                                                                                                         C}




                                                                      }
                                                BRC (BECAT)
                                             Federal Awards Issued
                                                FY 1998 - 2004
                                                                          Award
FY     Federal !Prlmel   S~onsor   S~nsor#            Res~   Person       Amount            1213112005

2003   DEPT OF COMMERCE                                                       $32,781.00    CLOSED
2003   DEPT OF DEFENSE                                                       $268,193.00    CLOSED
2003 DEPT OF DEFENSE                                                         $295,420.00    CLOSED
2003   DEPT OF DEFENSE                                                        $45,000.00   CLOSED
2003   DEPT OF DEFENSE                                                       $100,192.00   CLOSED
2003   DEPT OF DEFENSE                                                       $110,000.00 ' CLOSED
2003   DEPT OF DEFENSE                                                       $132,922.00   CLOSED
2003   DePT OF DEFENSE                                                       $101.436.00   CLoseD
2003   DePT OF DEFENSE                                                        $50,000.00   CLOSED
2003   DEPT OF DEFENse                                                       $125,000.00   CLOSED
2003   DEPT OF: DEFENSE                                                       $35,000.00   CLOSED
2003   DEPT OF DEFENSE                                                        $99,704.00   CLOSED
2003   DEPT OF DEFENSE                                                        $61,579.00   CLOSED
2003   DePT OF DEFENse                                                       $135,000.00   CLOSED
2003   DEPT OF DEFENSE                                                       $198,936.00   CLOSED
2003   DEPT OF DEFENSE                                                        $70,735.00   CLOSED
2003   DHHS                                                                   $69,041.00   CLOSED
2003   DHHS                                                                  $206,702.00   CLOSED
2003   DHHS                                                                   $92,903.00   CLOSED
2003   DHHS                                                                  $109,996.00   CLOSED
2003   NASA                                                                  $100,000.00   CLOSED
2003   NASA                                                                   $38,386.00   CLOSED
2003   NASA                                                                  $100,000.00   OPEN
2003   NSF                                                                    $50,000.00   CLOSED
2003   NSF                                                                    $60,000.00   OPEN
2003   NSF                                                                    $88,418.77   OPEN
2003   NSF                                                                    $51,996.00   OPEN
2003   NSF                                                                   $149,997.00   CLOSED
2003   NSF                                                                   $149,453.00   CLOSED
2003   NSF                                                                   $120,454.00   CLOSED
2003   NSF                                                                    $28,157.00   CLOSED
2003   OTHER FED SOURCES                                                      $75,000.00   CLOSED

                                                       TOTAL 2003           $3,352,401.77
                                1.
                                J
                                              BRC{BECAT)
                                           Federal Awards Issued
                                              FY 1998 - 2004

                                                                   Award
FY   Federal ~Primel S~onsor   SE!onsor#            ResE! Person   Amount            12131/2005

 2004 CIA                                                            $150,000.00     CLOSED
 2004 DEPT OF DEFENSE                                                $250,115.00     CLOSED
 2004 .DEPT OF DEFENSE                                                $181,390.00    CLOSED
 2004 DEPT OF DEFENSE                                                  $62,217.00    CLOSED
 2004 DEPT OF DEFENSE                                                 $116,000.00    CLOSED
 2004 DEPT OF DEFENSE                                                 $105,797.00    CLOSED
 2004 DEPT OF DEFENSE                                                  $60,000.00    CLOSED
 2004 DEPT OF DEFENSE·                                                $112,722.00    CLOSED
 2004 DEPT OF DEFENSE                                                  $65,611.00    CLOSED
 2004 DEPT OF DEFENSE                                                 $135,000.00    CLOSED
 2004 DEPT OF DEFENSE                                                  $50,000.00    OPEN
                                                                                                  ;
 2004 DEPT OF DEFENSE                                               $1,150,000.00    CLOSED
 2004 DEPT OF DEFENSE                                                  $15,000.00    CLOSED
 2004 DEPT OF DEFENSE                                                  $89,457.00    OPEN
 2004 DEPT OF DEFENSE                                                 $150,000.00    CLOSED
 2004 DEPT OF DEFENSE                                                  $80,000.00    OPEN
 2004 DEPT OF DEFENSE                                                 $500,000.00    CLOSED
 2004 DEPT OF DEFENSE                                                 $100,000.00    OPEN
 2004 DEPT OF DEFENSE                                                   $30,000.00   CLOSED
 2004 DEPT OF EDUCATION                                                 $56,156.00   OPEN
 2004 DHHS                                                            $214,500.00    CLOSED
 2004 DHHS                                                            $377,494.00    OPEN
 2004 DHHS                                                            $208,974.00    OPEN
 2004DHHS                                                               $84,244.00   CLOSED
 2004DHHS                                                             $111,912.00    CLOSED
 2004 DHHS                                                            $136,694.00    OPEN
 2004 DEPT OF INTERIOR                                                  $92,524.00   CLOSED
 2004 DEPT OF TRANSPORT                                                  $9,903.82   CLOSED
 2004 DEPT OF TRANSPORT                                                 $19,780.43   CLOSED
 2004 EPA                                                             $100,000.00    CLOSED
 2004 NASA                                                              $41,614.00   CLOSED
 2004 NASA                                                            $150,000.00    OPEN
 2004 NSF                                                             $111,000.00    CLOSED
 2004 NSF                                                               $60,000.00   OPEN
  2004 NSF                                                              $12,000.00   CLOSED
  2004 NSF                                                              $93,134.00   OPEN
  2004 NSF                                                            $234,116.00    OPEN
  2004 NSF                                                            $126,279.00    CLOSED
  2004 NSF                                                              $85,845.00   OPEN
  2004 NSF                                                              $61,398.00   CLOSED
  2004 NSF                                                             $335,000.00   OPEN
  2004 NSF                                                             $150,000.00   OPEN
  2004 NSF                                                             $106,000.00   OPEN·
  2004 NSF                                                             $350,000.00   OPEN
  2004 NSF                                                             $144,587.00    OPEN

                                                     TOTAL 2004      $6,876,464.25
·
.




    ATTACHMENT B
                             BEFORE mE UNITED STATES
                        ENVIRONMENTAL PROTECTION AGENCY


In the name of:

       University of Connecticut                   EPA Case No. 03-0007-00



                               COMPLIANCE AGREEMENT

This Agreement is made between the United States Environmental Protection Agency ("EPA"),
Suspension and Debarment Division ("SDD"), acting as lead federal agency for suspension and
debarment matters, and the University of Connecticut in order to resolve all matters relating to
discretionary suspension and debarment pursuant to 48 CFR Subpart 9.4 and 40 CFR Part 32
arising out of the Settlement Agreement between the University of Connecticut and the United
States of America (acting through the Department of Justice) resolving issues of billing rates,
excessive compensation and cost sharing/matching on claims submitted from July 1, 1997 to
October 5,2004. The Parties agree that this Compliance Agreement is limited to "Covered
Conduct" as defined by the Settlement Agreement and that issues of present responsibility arising
out of any other conduct including, but not limited to, improper data manipulation on U.S
Government-funded analyses conducted by the Volatile Organics Laboratory of the
Environmental Research Institute at the University of Connecticut are excluded from this
Agreement.

                                          RECITALS

A. The Environmental Research Institute ("ERI") and the Booth Research Center ("BRC") are
specialized service facilities at the University of Connecticut ("UCONN").

B. ERI and BRI were awarded a series of Federal grants and/or contracts during the period July
I, 1997 and October 5, 2004.

C. In or about September 2002, the United States began an investigation of allegations of
professional and criminal misconduct occurring at UCONN that coincided with investigations
conducted by l!CONN and the Office of the Attorney General of Connecticut; the investigation
involved an extensive review of grant research and development dollars awarded by the United
States to UCONN.

D. The United States and UCONN investigations looked at financial practices ofERI and BRC;
UCONN cooperated extensively with the United States with respect to its ERI and BRC
investigations.
E. As a result of the ERI and BRC investigations, the United States believes that on or about
July 1, 1997, UCONN began to submit grant applications containing incorrect or overstated
information about anticipated expenses at ERI and BRC.

F. The United States further believes that between July 1, 1997 and October 5, 2004, UCONN
charged to the grants, and submitted invoices to the United States for payment from the grants,
certain expenses that were not properly chargeable, including:
               • Billing rates
               • Excessive compensation
               • Cost sharing/matching.

G. The United States contends that it has certain civil claims against UCONN under the False
Claims Act, 31 U.S.C. §§ 3729-3733, and other Federal statutes and/or common Jaw doctrines,
for the improper billing, excessive compensation, and cost sharing/matching.

H. UCONN denies as a matter of law that it has any institutional liability under the False Claims
Act, 31 U.S.C. §§ 3729-3733, or other Federal statutes andlor common law doctrines with regard
to its Federal contracts and/or grants.

I. In order to avoid the delay, uncertainty, inconvenience, and expense of protracted litigation of
these claims, however, the Parties reached a full and final settlement memorialized in a
Settlement Agreement between the University of Connecticut and the United States, acting
through the Department of Justice.

J. UCONN wishes to resolve issues of suspension and debarment arising from the Settlement
Agreement and the investigations which led to the Settlement Agreement.

K. The Federal Agencies participating in the Inter-governmental Suspension and Debarment
Committee have agreed that EPA shall assume lead agency to resolve suspension and debarment
matters arising from the Settlement Agreement.

NOW THEREFORE, the University of Connecticut and the United States Environmental
Protection Agency, recognizing that the information recited above raises issues concerning
present responsibility as a Government contractor and assistance participant and

        understanding the mutual benefit of demonstrating business integrity,

        ensuring the integrity of procurement and assistance programs of the EPA and other
        federal agencies, and

        resolving issues of discretionary suspension and debarment pursuant to 48 CFR Subpart
        9.4 and 40 CFR Part 32

arising from the Settlement Agreement described herein, agree as follows:

                                                - 2--
                                 TERMS AND CONDITIONS

Compliance Policy

1. No later than July 1,2006, UCONN shall implement written policies regarding its
commitment to ensure compliance with all laws and regulations related to the receipt of Federal
grants and contracts; such policies shall be amended or enhanced as necessary or appropriate.

2. These policies shall be adopted by the Board of Trustees and distributed to all ueONN
employees involved in any manner with the receipt and/or administration of Federal grants and
contracts.

3. The policies shall be included as part of the annual training and included in the annual report
to EPA SDD, which training and annual report are described hereinafter.

Chief Compliance Officer

4. UeONN shall maintain the position of Chief Compliance Officer ("CeO") reporting
to the Board of Directors.

5. The ceo shall be responsible for UeONN compliance operations, including but not limited
to the review of grants and contracts, the development of training programs, and the submission
of comprehensive reports, at least annually or more frequently as the eeo deems appropriate, to
the Board of Trustees, and to EPA SDn during the tenn of this Agreement, on the status of
compliance at ueONN.

6. The ceo may work closely with the Vice Provost for Research and Graduate Education ( the
University cognizant officer for Federal grants, contracts and cooperative agreements) and the
existing Office of Research Compliance and Office of Sponsored Programs (reporting to the Vice
Provost) as well as the cognizant faculty committees to strengthen the research compliance
function at the University as to federal grants, contracts and cooperative agreements but ultimate
authority and responsibility for compliance and the reporting required by this Agreement shall be
the ceo.

Compliance Program

7. No later than July 1,2006, the President ofUCONN and the UeONN ceo shall certify to
EPA snn that ueONN has in place an adequate and .appropriate comprehensive compliance
program ("Program") to prevent fraud, abuse, and false billing to Federal grants, contracts and
cooperative agreements ("grants and contracts") by UCONN, its officers, faculty, and other
employees.


                                                 -3-
8. The Program shall be maintained so as to ensure that UCONN and each of its officers, faculty
and other relevant employees maintain the integrity required of a participant in Federally-funded
programs, and that UCONN is in compliance with all laws and regulations applicable to such
programs and with the terms of this Compliance Agreement.

9. The CCO shall chair a Compliance Committee that shall be responsible for the Program; the
members of the Compliance Committee shall include, at a minimwn, the Chief Operating Officer
of UCONN (or equivalent), the Chief Financial Officer ofUCONN, the Vice President for
Academic Affairs (or equivalent), the Vice President for Research, the Executive Director of the
Office of Sponsored Programs, and the Director of Research Compliance.

Budget and Accounting Records

10. The Program shall insure that each UCONN cost recovery center with responsibility for
Federal contracts and grants maintains budget and accounting records sufficient to demonstrate
compliance with OMB Circular A-21 and UCONN's own internal policies.

11. If the Program does not require that budget and accounting records for all UCONN cost
recovery centers with responsibility for Federal contracts and grants include line item budgeting
and accounting, the ceo shall provide EPA SOD, no later than July 1, 2006, with a description
of the budget and accounting system that is employed with an explanation of the suftlciency and
appropriateness of the alternate system.

Internal Audit Requirements

 12. The Internal Audit office ofUCONN shall conduct, on an annual basis, a comprehensive
 audit ofUCONN's compliance with all applicable federal laws and regulations regarding the use
 and expenditure of federal grant and contract funds, including the uniform administrative
 requirements contained in the Federal Acquisition Regulations, regulations governing grants for
 research projects in 42 C.F .R. Part 52, and cost principles contained in OMB Circular A-21.

 13. The annual internal audit shall encompass each academic'Department, cost recovery center or
 other subdivision of UCONN that receives or has oversight responsibility with respect to Federal
 grants and contracts and (a) shall be conducted in accordance with Generally Accepted Auditing
 Standards, (b) use statistical sampling, (c) test enough transactions to yield results that would
 generally be recognized as complete, and (d) include generally accepted methods designed to
 identify misconduct.

 14. The annual internal audit shall be in addition to the single audit requirements contained in
 OMB Circular A-133.

  15. UCONN shall provide the Internal Audit office and the ceo with the results of any review
. conducted at UCONN which reveals information that might constitute or indicate noncompliance


                                                 -4-
with Federal requirements; such information shall include, but may not be limited to, financial,
ethical or academic issues. such as scientific misconduct or conflict of interest.

16. Not later than January 1,2007, UCONN shall retain an independent accounting firm (a) to
perfonn a comprehensive audit ofUCONN's internal controls to ensure compliance with Federal
requirements applicable to grants and contracts and (b) evaluate the adequacy of the annual '
internal audit required by this Agreement.

17. All audit workpapers or other supporting documents for audits or reviews of federal
compliance shall be made available to EPA SDD upon request.

Remediation

18. Any material violations discovered during any audits or review shall be reported within
thirty (30) days to EPA SDD, at the address specified in paragraph 014, and to

               Chief. Civil Division
               United States Attorney's Office
               157 Church Street, 24th Floor
               New Haven, CT 06510

and remediation shall be initiated within sixty (60) days of identification by u'CONN; the Parties
agree that a material violation is one which has a significant, adverse impact on federal grants or
contracts.

19. A summary of the remedial actions will be reported as required hererinafter; the summary
shall include:

    a. A complete description of the material deficiency, including the relevant facts, persons
       involved, and legal program authorities;

    b. UCONN's actions to correct the material deficiency; and

    c. Any further steps UCONN plans to take to address such material deficiency and prevent it
       from recurring. .

20. EPA SDD or the Office of the United States Attorney for the District of Connecticut may
request additional corrective action if it believes that UCONN's actions are not adequate to 'I
ensure compliance with Federal requirements.

Training

21. UCONN shall expand on-going training programs to ensure that each officer, faculty
member, or other relevant employee is aware of all applicable laws and regulations and standards

                                                 -5-
of conduct that such individual is expected to follow and the consequences both to the individual
and UCONN that will ensue from any violation of such requirement; relevant employees are
those individuals with a role or responsibility in the receipt andlor administration of federal
grants or contracts.

22. Each relevant employee shall receive training

           a.. at least 3 hours of initial training which shall emphasize proper financial
               management and include a discussion of the contents of the UCONN Compliance
               Agreement~ and
           b. two hours of additional training on an annual basis for the duration of this
               Agreement.

23. A schedule and topic outline of the training shall be included in the annual report submitted
by the CCO to EPA SDD.

24. Each grant or contract manager and principal investigator shall certify in writing that they
have participated in the training required by this Agreement; UCONN shall maintain the
certifications for inspection by EPA SDD.

Confidential Disclosure Program

25. UCONN shall establish or expand an existing confidential disclosure mechanism enabling
employees to disclose anonymously any practices or billing procedures, deemed by the employee
to be inappropriate, to the UCONN CCO.

26. UCONN shall make the confidential disclosure mechanism known to each employee as part
of the training required by this Agreement.                                          '

27. UCONN shall, as part of the confidential disclosure program, require the internal review of
any credible disclosure and ensure that proper follow-up is conducted.

28. The UCONN CCO shall include in its annual compliance report to EPA SDD a summary of
communications concerning inappropriate billings or any other inappropriate conduct under the
confidential. disclosure program, and the results of any internal review and follow-up of such
disclosures.

Resolution ofPayments due the United States

29. UCONN shall demonstrate present responsibility by prompt compliance with the terms of
the Settlement Agreement which require identification and reimbursement of certain unallowable
costs.
                                                                         )



30. The ceo shall include the status of compliance with reimbursement provisions ofthe
Settlement Agreement as part of the annual report to SDD.

Non~verifiable   Analyses by ERI Volatile Organics Laboratory

31. UCONN shall notify all Government agencies or Government-funded entities which were the
recipients of data determined by the August 29,2003 Final Report of the Ad Hoc Investigation
Committee for Alleged Scientific Misconduct at ERI (an internal UCONN committee) to be the
result of scientific misconduct amounting to falsification of data during the period January 2000
through May 2002.               .

32. UCONN shall expeditiously reimburse the Government agency or the Government-funded
entity which paid for analyses, perfonned during the period January 2000 through May 2002,
which are now recognized as unreliable.

33. No later than July 1, 2006, UCONN shall provide EPA snD with

             a. the names of all Federal Government agencies or Federal Government-funded
                 entities which have been reimbursed for unreliable analyses performed during the
                 period January 2000 through May 2002 ,
             b. the amount of reimbursement, and
             c. a certification by the CCO that all Federal Government agencies or Federal
                 Government-funded entities have been reimbursed for unreliable analyses
                 performed during the period January 2000 through May 2002.

Reports

34. UCONN shall provide to EPA SDD at the address specified in paragraph G 14 and to

                 Chief, Civil Division
                 United States Attorney's Office
                 157 Church Street, 24th Floor
                 New Haven, CT 06510.

the following reports:

          a) a copy of each report, required by the provisions of paragraph 5 of this Agreement, by
          the CCO to the Board of Trustees;

          b) an annual report by the CCO describing the status of compliance by UCONN with
          applicable law, regulation, and the requirements of this Agreement including training, the
          reimbursement requirements of the Settlement Agreement, status of reimbursement for
          unreliable analyses and confidential disclosures;


                                                   -7-
       c)) the findings or report from the annual internal audit required by paragraph 12;

       d) the report from the outside audit required by paragraph 16;

       e) a written report of the corrective actions that UCONN has undertaken as a result of any
       deficiencies that were discovered by the internal audit, by audits or reviews conducted
       pursuant to OMB Circular A-l33, or by other audits or reviews; and

       f) If deficiencies are found in any audit or review, the report on UCONN's corrective
       actions will include a certification by the ceo that all deficiencies found have been
       addressed to ensure UCONN's compliance with all requirements of federal law,
       regulation, and this Compliance Agreement.

The annual report by the CCO to EPA snn shall be due July 1,2006,2007,2008,2009 and
2010; each other required report or audit shall be submitted within 30 days of preparation; the
Parties understand that the July 1, 2006 report will be a progress report for those requirements
not yet due.

In addition to the annual reports, the following submissions are required by this Agreement:

       July 1,2006             Certifications by President and CCO that Compliance Program in
                               place (paragraph 7).

       July 1,2006             If line item budgeting not used, CCO will provide a description of
                               the budget and accounting system employed with an explanation of
                               the sufficiency and appropriateness of the alternate system
                               (paragraph 11).

       July 1, 2006            names of all Federal Government agencies or Federal Government-
                               funded entities which have been reimbursed for unreliable analyses
                               performed during the period January 2000 through May 2002 ,the
                               amount of reimbursement, and a certification by the CCO that all
                               Federal Government agencies or Federal Government-funded
                               entities have been reimbursed for unreliable analyses performed
                               during the period January 2000 through May 2002 (paragraph 33).


Inspection, Audit and Review

3'5. In addition to any other right that the United States has pursuant to the Federal Acquisition
Regulations, OMB Circulars A-IIO and A-I33, or other authority,EPA SDD or its duly
authorized representative(s) may examine and copy UCONN's books, records, and other
documents and supporting materials for the purpose of verifying and evaluating: (a) UCONN's
compliance with the terms of this Compliance Agreement; (b) UCONN's conduct in its dealing

                                                 -8-
                                                                        ').



with the United States Government, or any agencies or agents thereof; and (c) UCONN's
compliance with any Federal requirements.

36. The docwnentation described above shall be made available by UCONN at all reasonable
times for inspection, audit andlor reproduction.

37. For purposes of this inspection, audit and review provision, EPA SOD or its authorized
representative(s) may interview any UCONN employee at the employee's place of business
during normal business hours or at such other place and time as may be mutually agreed upon
between the employee and the United States

Document and Record Retention

38. In addition to the document retention requirements contained in Federal Acquisition
Regulations Subpart 4.7, OMB Circular A 11O, or in the terms ofthe pertinent grant award,
                                           4




cooperative agreement, or contract, UCONN shall maintain for inspection all documents and
records relating to reimbursement under federal grants and contracts for a period of 5 years
following the execution of this Compliance Agreement.

Costs Related to Compliance Plans

39.      In addition to the restrictions contained in OMB Circular A-21, section J.11, none of the
direct or indirect costs associated with the implementation of this Compliance Agreement,
including the costs of training, may be claimed on Government grants or contracts..

Debarred or Suspended Persons or Entities

40. UCONN affirmatively represents that UCONN shall not do business with or knowingly
employ, with or without pay, an individual or entity who is listed by a Federal agency as
debarred, suspended or otherwise ineligible for Federal programs in a capacity involving
responsibility for of Federal grants, contracts, or other benefits.

41. As part of carrying out the policy, UCONN shall make reasonable inquiry into the status of
any potential employee, consultant or contractor; such reasonable inquiry shall include, at a
minimum, review of the GSA List of Parties Excluded from Federal Procurement and Non-.
Procurement Programs.

42. As to individuals who become suspended or are proposed for debarment during their
employment with UCONN, UCONN will remove such employees from responsibility for Fe,deral
grants, contracts, or other benefits until termination of such suspension or debarment; UCONN
shall notify EPA SnD of each such personnel action taken and the reasons therefore, within 15
days of the action.



                                                -9-
 GENERAL PROVISIONS

  G 1. Limitations on Settlement. .(April 2005) This Agreement relates solely to suspension
  and debarment issues, pursuant to 48 C.F.R. Subpart 9.4 and 40 C.F.R. Part 32, in conjunction
  with the Settlement Agreement described herein and in no way waives any criminal, civil,
  contractual, or administrative remedy or right which the Government may have for the
  circumstances so described nor does this Agreement restrict the authority, responsibility or legal
  duty of EP A to consider and institute suspension and/or debarment proceedings against
. Respondent infonnation is received which provides a caUSe for suspension and/or debarment
  independent of the circumstances recited or referenced herein.             .

 02. Debarment Resolution. In consideration of the Respondent's compliance with all of the
 tenns of this Agreement, EPA agrees not to suspend or debar Respondent based on the facts
 recited herein and any criminal conviction or civil judgment resulting therefrom.

 03. Finality of Agreement. Respondent hereby waives all further notice and opportunity for
 hearing to which they may otherwise be entitled and consent to proceed a~cording to the tenns of
 the Agreement.

 G4. Breach or Agreement/Survival of Cause for Debarment. (Revised April 2000) The
 Parties agree that the causes for debarment survive the execution of this Agreement and EPA may
 initiate suspension and/or debarment proceedings against Respondent on these grounds if there is
 a material breach of this Agreement. Any material breach of this Agreement may also be regarded
 as an independent cause for suspension or debarment; the Parties agree that repeated violations of
 non-material provisions of this Agreement may cumulatively become a material breach of this
 Agreement. EPA may, upon evidence that Respondent has committed a material breach of the
 Agreement, suspend or propose Respondent for debarment. EPA will promptly notify             .
 Respondent in writing of the suspension or proposed debarment. Respondent will have the right
 to contest the suspension or proposed debarment according to the procedures set forth in 40
 C.F.R. Part 32.

 05. Release of Liability. By execution of this Agreement,Respondent releases and shall hold
 harmless the United States, its instrumentalities, agents, and employees, in their official and
 personal capacities, of any and all liability or claims arising out of or otherwise related to the
 negotiations leading to this Agreement and all matters contained herein.

 06. Freedom of Information Act. Respondent acknowledges that this Agreement and the
 Attachments hereto are subject to release by EPA in accordance with the provisions of the
 Freedom of Information Act, 5 U.S.C. §552 et seq.

 07.    Obey AU Laws. Respondent will obey all laws and regulations of the Unites States, the
 relevant state and the local jurisdiction. Nothing in this Agreement shall be deemed to limit
 Respondent's obligations under any Federal law or regulation nor does this Agreement limit in
                                                 ~10-
any manner the right of the EPA to apply to Respondent any provision of any regulation lawfully
promulgated by EPA or the right of EPA to modifY or amend or add to such regulations from time
to time.

G8. Reporting Requirement. (Revised June 2003) In the event that Respondent is ever
indicted, convicted, or otherwise charged, whether civilly or criminally, in a formal judicial
complaint by any governmental entity or by a private party in a qui tam suit or a suit under any
environmental statute, Respondent agrees to notifY EPA, at the address specified herein, within
ten (10) calendar days; Respondent will likewise notifY EPA upon the indictment of, or the
entering of a guilty plea or a plea of nolo contendere by any director, officer, employee, or
consultant for violation of any criminal statute where the violation occurred in connection with the
individual's performance of duties for, or on behalf of Respondent.

G9. Restructuring or Acquisition of New Businesses. Respondent shall not, through achan:ge
of name, business reorganization, sale or purchase of assets, or similar action, seek to avoid the
obligations and conditions set forth in this Agreement. If, during the period covered by this
Agreement, Respondent acquires or gains control of any business concern, which performs or may
perform work on projects funded by Federal assistance or procurement programs, EPA shall be
notified within ten (10) calendar days. Such notice shall state the nature of the business concern,
the address of the business concern and the names and addresses of the business concerns' officers
or directors. At its sole election, EPA may determine that such companies shall be subject to the
terms and conditions of this Agreement. In the event that EPA determines that newly-acquired
business concern shall be subject to the provisions of this Agreement, EPA shall notifY
Respondent in writing of its determination.

G 1O. Successor and Sale of Assets. The terms, conditions and obligations of this Agreement
shall survive the reorganization of Respondent's corporate structure and shall be fully binding
upon any organization which is a successor in interest to substantially all of the assets or shares of
Respondent or which is associated or affiliated with Respondent, provided, however, that this
Agreement is not intended to restrict the lawful and legitimate sale of assets to a bone fide
purchaser and would not bind such an asset purchaser.

GIl.· Compliance Reviews. (Revised November 2001) During the period of the Agreement, the
EPA may review Respondent's compliance with the terms of this Agreement. Such a compliance
review shall include the examination of relevant business records and reports, visits by a member
or members ofSDD to Respondent's facilities, and interviews with employees. Respondent agrees
to reimburse the U.S. Treasury for the reasonable costs actually incurred of conducting such audits
during the tenn of this Agreement. The Parties agree that "cost" shall include reasonable
expenses for travel, transportation, lodging and meals, to the extent normally authorized und~r
Federal rules governing Government travel, as such expenses are actually incurred by EPA
personnel or its authorized agents in conducting site visits for the purpose of verifying compliance
with this Agreement. No part of the reimbursement of costs in accordance with this provision
shall be an allocable cost under any Government contract, sub-contract or assistance agreement.


                                                 -11-
                         I"/-'-~'\.


                          , J



012. Audits Not Conducted On-Site. As an alternative to an on-site audit of Respondent's
compliance with the terms of this Agreement, EPA may. at its sole election, conduct an audit by
mail in which instance Respondent shall provide documentation of its compliance with this
Agreement including but not limited to copies of documentation maintained as required in this .
Agreement and such additional documentation and/or certifications as may be requested by EPA.

013. Documentation. Respondent shall maintain documentation sufficient to demonstrate
compliance with the requirements of this Agreement.

G14. Notification Addresses. All notifications or submissions from Respondent required under
this Agreement will be mailed to the following addresses:

               U.S. Environmental Protection Agency
               Suspension and Debannent Division (3902-R)
               1200 Pennsylvania Avenue, NW
               Washington, DC 20460
               Attention: Frank Dawkins - 202.564.5295

        The University of Connecticut contact for matters involving this Compliance Agreement
shall he:

              Kenneth M. Walker
              Director of Audit Compliance and Ethics
              9 Walters Avenue
              Storrs. CT 06269-5084


G15. Term of the Agreement. (March 2004) This Agreement may be aU.dited by EPA until
December 31, 2010.

016. Endorsement by the Debarring Official. This Agreement shall become effective only
upon its acceptance by the Debarring Official, pursuant to 40 C.F.R. Part 32, as evidenced by his
dated endorsement affixed hereto.

G17. Certification as to Recited Facts. Not Applicable

University of Connecticut




      ~~_/~
BY: Philip Austin, ~resident


                                               -12-
                                                                  -,-----
                                                                 i,       }




University of Connecticut Chief Compliance Officer




Kenneth M. Walker                                                             DATE




For the U.S. Environmental Protection Agency




Debannen    ounsel



                        ENDORSEMENT AND DETERMINATION


       Having reviewed the tenns of the above Compliance Agreement between the U.S.
Environmental Protection Agency and University of Connecticut, I hereby approve these tenns as
an appropriate ispos' ·on of this matter .




        . Meunier, Esq.
      of Grants and Debarment
      nvironmental Protection Agency Debarring Official




                                               -13-
Press Releases                                                                                                           ...
                                                                             !- ') .



                     United States Attorney'sOffice District of
                     Connecticut
                     Press Release

         January 9,2006 UCONN AGREES TO PAY $2.5 MILLION TO SETTLE FALSE CLAIMS                               "
                     ALLEGATIONS

                     Kevin J. O'Connor, United States Attorney for the District of Connecticut, today
                     announced that The University of Connecticut (UCONN) has agreed to pay $2.5
                     million to settle civil allegations that the university violated the False Claims Act
                     by submitting false claims on approximately 500 Federal grants awarded to
                     UCONN from July 1997 through October 2004. The $2.5 million payment
                     comprises two components: $1.7 million in actual damages for the false claims,
                     and $800,000 assessed as penalties for the false claims.

                     The federal government awarded the grants for work to be performed by two of
                     UCONN's'specialized,service facilities, the Environmental Research Institute
                     (ERI) and the Booth Research Center (BRC). UCONN submitted claims, and the
                     United States paid federal monies, in excess of $40 million in direct and indirect
                     costs related to the grant awards during the time period in question. The grant
                     awards were made by numerous federal agencies and entities, including the '
                     Department of Defense, the Environmental Protection Agency, the National
                     Science Foundation, and the National Aeronautics and Space Administration.

                     In September 2002, the federal government began an investigation into
                     allegations of misconduct occurring at UCONN. The government specifically
                     alleges that UCONN submitted grant applications containing incorrect or
                     overstated information about anticipated expenses in the ERI and BRe. The
                     government further alleges that UCONN charged to the grants certain expenses
                     that were not properly chargeable, and submitted invoices to the federal
                     government for the payment of three types of grant expenses.

                     First, the government alleges that UCONN did not utilize a proper basis for
                     setting and regularly updating its billing rate structure, as required by federal law.
                     UCONN's failure to revise and appropriately set its billing rate structure resulted
                     in numerous false claims being submitted for payment to the United States.

                     Second, the government alleges that UCONN failed to follow federal law for
                     calculating how extra compensation should be paid to UCONN faculty members
                     for additional work on grant,supported research activity at ERI and BRC, and that
                     improper excess charges were therefore charged to the federal grants in question.

                     Finally, the government alleges that certain of the grants required cost sharing or
                     matching by UCONN, and that the university failed to provide the requisite cost
                     sharing or matching.

                     "Academic institutions that receive federal grants have a responsibility to
                     administer those grants properly," U.S. Attorney O'Connor stated. "We believe


lof2                                                                                                     02/01/20064:43 PM
Press Releases                                                                                                           :


                     that the investigation that led to this settlement has served as a wake,up call for
                     UConn, and that they have made great strides in reforming their grant
                     administration procedures."

                     u.s. Attorney O'Connor noted that UCONN initiated compliance reviews
                     regarding the financial practices of both ERI and BRC, and has cooperated
                     extensively with the investigation.

                     As a result of this settlement, there will be no lawsuit filed against UCONN. The
                     university also signed a compliance agreement with the federal government that
                     will require UCONN to make significant changes in its grant administration
                     program. The changes include the implementation of written policies regarding
                     compliance with all laws and regulations related to the receipt of federal grant
                     money, the implementation of additional training programs for grant
                     administrators, and the submission to the federal government of annual reports
                     detailing UCONN's compliance efforts.

                     In addition, by July 1, 2006, the university must certify that it has in place an
                     adequate and appropriate compliance program for preventing fraud and false
                     billing to federal grants.

                     This settlement is the result of a lengthy investigation conducted by the Defense
                     Criminal Investigative Service; the Environmental Protection Agency, Office of
                     the Inspector General; the Defense Contract Audit Agency; and the Department
                     of the Army, Criminal Investigative Division. The matter was handled within the
                     U.S. Attorney's Office by Assistant U.S. Attorney William A. Collier.         '


          CONTACT:   U.S~   ATTORNEY'S OFFICE
                     Tom Carson
                     (203) 821,3722
                     thomas.carson@usdoj.gov




                                          Privacy Policy • Home
                                             Copyright© 2003




                                                                                                                 I'

20f2                                                                                                     02/01/20064:43 PM
